                                   Report Template Update: 04-03-08




Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   CMS REPORTING TO THE
  HEALTHCARE INTEGRITY AND
   PROTECTION DATA BANK




                    Daniel R. Levinson
                     Inspector General

                     September 2010
                     OEI-07-09-00290
                                                              Report Template Update: 04-03-08




   E X E C U T I V E                       S U M M A R Y


                  OBJECTIVE
                  To determine whether the Centers for Medicare & Medicaid Services
                  (CMS) reported all of its adverse actions to the Healthcare Integrity and
                  Protection Data Bank (HIPDB) as required.


                  BACKGROUND
                  The HIPDB is a national data bank containing reports of adverse
                  actions against health care practitioners, providers, and suppliers
                  (hereinafter referred to as providers). The HIPDB plays an important
                  role in preventing the employment of potentially fraudulent or abusive
                  providers, so it is important that the information it contains be complete
                  and accurate. The HIPDB is administered by the Health Resources and
                  Services Administration (HRSA) through a Memorandum of
                  Understanding with the Office of Inspector General.

                  The Social Security Act defines the types of adverse actions that must
                  be reported to the HIPDB. These include licensure and certification
                  actions, exclusions from participation in Federal and State health care
                  programs, criminal convictions, civil judgments related to health care,
                  and any other adjudicated actions or decisions that the Secretary of
                  Health & Human Services establishes by regulation. CMS takes several
                  types of adverse actions that are required to be reported to the HIPDB,
                  including revocations and suspensions of laboratory certifications;
                  terminations of providers from participation in Medicare; and civil
                  monetary penalties against all types of providers, managed care plans,
                  and prescription drug plans. Federal and State government agencies
                  and health plans are required to report certain adverse actions to the
                  HIPDB.

                  We reviewed the data contained in the HIPDB as of April 30, 2009, to
                  determine the extent of CMS’s reporting of adverse actions as of that
                  date. We conducted structured interviews with CMS officials in each
                  division that is responsible for oversight and/or HIPDB reporting of
                  Medicare providers. For CMS divisions that maintained lists of
                  imposed adverse actions, we collected documents or data to support the
                  number of adverse actions imposed.




OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                             i
                                                              Report Template Update: 04-03-08




E X E C U T I V E             S U           M M A R Y




                   FINDING
                   CMS took adverse actions against providers, but did not report all of
                   these actions to the HIPDB as required. CMS’s reporting to the
                   HIPDB varied by provider type; CMS officials believe that only adverse
                   actions related to fraud and abuse should be reported to the HIPDB.
                   However, the Social Security Act does not limit the reporting of adverse
                   actions to cases of fraud and abuse. CMS failed to report the following
                   adverse actions or failed to report them within the required timeframes:

                      None of the 148 adverse actions imposed against laboratories in
                       2007 and the 30 adverse actions imposed against managed care and
                       prescription drug plans between January 1, 2006, and July 31, 2009
                       (the last action was effective March 7, 2009), had been reported to
                       the HIPDB at the time of our review.

                      None of the adverse actions against durable medical equipment
                       (DME) suppliers taken after 2008 had been reported to the HIPDB.
                       However, as of April 30, 2009, the HIPDB contained 5,125 adverse
                       actions against DME suppliers imposed from 1998 through 2008.
                       According to the officials with whom we spoke, as a cost-saving
                       measure, CMS is no longer reporting adverse actions taken against
                       DME suppliers to the HIPDB.

                      None of the 45 nursing homes terminated from participating in
                       Medicare from 2004–2008 were reported to the HIPDB until 2009,
                       well after the required reporting timeframe.

                   The Division of National Systems (DNS), the group within CMS
                   responsible for reporting adverse actions against certified provider
                   types, did not report any actions between 2001–2008. DNS uses an
                   electronic system to track adverse actions against providers that are
                   required to have a State survey or are accredited by an accrediting
                   organization, such as hospitals and nursing homes. DNS officials
                   indicated that they report only termination actions that are for failure
                   to meet health and safety requirements and that have gone through the
                   entire appeals process, after which the terminated providers will no
                   longer participate in Medicare. However, adverse actions are required
                   to be reported within the timeframes specified by law regardless of
                   whether appeals are pending.




 OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                           ii
                                                            Report Template Update: 04-03-08




E X E C U T I V E             S U           M M A R Y




                   RECOMMENDATION
                   CMS should report all adverse actions as required. To accomplish
                   this, CMS should educate staff and contractors about the types of
                   adverse actions required to be reported and the timeframes for
                   reporting.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its written comments on the report, CMS concurred with our
                   recommendation. CMS described planned efforts to report adverse
                   actions imposed against nursing facilities, laboratories, and DME
                   suppliers, including working with HRSA to develop technical procedures
                   and educating staff and contractors about HIPDB reporting. We did not
                   make any changes to the report based on CMS’s comments.




 OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                        iii
                                                                                        Report Template Update: 04-03-08




   T A B L E                   O F           C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i



                  INTRODUCTION ........................................... 1



                  FINDING................................................... 7
                            CMS took adverse actions against providers, but did not report
                            all of these actions to the HIPDB as required . . . . . . . . . . . . . . . . . 7


                  R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                            Agency Comments and Office of Inspector General Response . . . 11


                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                            A: Types of Adverse Actions Required To Be Reported
                               to the HIPDB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                            B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17




OEI-07-09-00290         CMS REPORTING     TO THE   HIPDB                                                                      iv
                                                                         Report Template Update: 04-03-08




   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine whether the Centers for Medicare & Medicaid Services
                  (CMS) reported all of its adverse actions to the Healthcare Integrity and
                  Protection Data Bank (HIPDB) as required.


                  BACKGROUND
                  The HIPDB is a national data bank containing reports of final adverse
                  actions (e.g., exclusions from participation in a Federal health care
                  program, health-care-related criminal convictions) against health care
                  practitioners, providers, and suppliers (hereinafter referred to as
                  providers). State and Federal agencies and health plans may query the
                  HIPDB to assist them in preventing the employment of potentially
                  fraudulent or abusive providers. As of April 30, 2009, the HIPDB
                  contained information on 389,273 adverse actions. 1
                  The HIPDB plays an important role in preventing fraud and abuse, so it
                  is important that the information it contains be complete and accurate.
                  Furthermore, users pay fees for each query they submit to the HIPDB
                  with the expectation that they will receive complete and accurate
                  information in return.

                  Federal and State government agencies and health plans are required
                  to report to the HIPDB certain final adverse actions that they take
                  against providers relating to a health care item or service. Within the
                  Department of Health & Human Services (HHS), CMS oversees health
                  care programs that serve the largest percentage of health care
                  consumers—an estimated 45 million Medicare beneficiaries and
                  59 million Medicaid beneficiaries. 2 CMS may take many types of
                  adverse actions against the providers it oversees, including revocations
                  and suspensions of certifications, terminations of participation in
                  Medicare, and civil monetary penalties (CMP). State agencies also
                  report final adverse actions imposed against providers—for example, an
                  adverse action that could be taken by a State agency is the loss of a



                    1 Of the 389,273 adverse actions, 328,516 were reported by State agencies, 55,385 were
                  reported by Federal agencies, and 5,372 were reported by health plans.
                    2 Medicare Enrollment: National Trends 1966-2008. Accessed at
                  http://www.cms.hhs.gov on January 4, 2010. Total Medicaid Enrollment, FY 2006, The
                  Henry J. Kaiser Family Foundation. Accessed at http://www.statehealthfacts.org on
                  December 9, 2009.



OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                                             1
                                                                        Report Template Update: 04-03-08




I N T R O D        U C T     I O N


                    provider’s license or certification agreement for participation in its
                    Medicaid program. 3
                    Establishment of the HIPDB
                    Section 221 of the Health Insurance Portability and Accountability Act
                    of 1996 amended the Social Security Act by adding section 1128C, which
                    required the Secretary of HHS, acting through the Office of Inspector
                    General (OIG) and the United States Attorney General, to create a
                    national health care fraud and abuse control program, including a
                    national data bank containing certain adverse actions against providers.
                    This data bank, known as the HIPDB, became operational in 1997.
                    The HIPDB is administered by the Health Resources and Services
                    Administration (HRSA) through a Memorandum of Understanding with
                    OIG. HRSA also administers the National Practitioner Data Bank
                    (NPDB), which collects information related to the professional
                    competence and conduct of physicians, dentists, and other health care
                    practitioners. HRSA contracts the operations of both data banks to a
                    private company, SRA International.
                    Purpose of the HIPDB
                    The purpose of the HIPDB is to prevent health care fraud and abuse
                    and to improve the quality of patient care within the United States. 4 To
                    that end, the HIPDB should contain all adverse actions subject to
                    reporting requirements in the implementing regulations found in
                    45 CFR pt. 61. The HIPDB information is intended to be used in
                    combination with information from other sources (e.g., peer
                    recommendations, verification of training and experience) when making
                    determinations about employment, affiliation, certification, or licensure.

                    Section 1128E of the Social Security Act and the implementing
                    regulations require the reporting of a variety of adverse actions to the
                    HIPDB and do not limit the reporting of adverse actions to cases of
                    fraud and abuse. The Federal Register containing the final rule
                    implementing section 1128E states:

                            Congress used the term health care fraud and
                            abuse only once in the provision’s opening
                            paragraph for purposes of naming the data


                      3 45 CFR § 61.7.
                      4 HIPDB Guidebook, p. A-2. Accessed at http://www.npdb-hipdb.com on
                    November 30, 2009.



 OEI-07-09-00290    CMS REPORTING   TO THE   HIPDB                                                    2
                                                                          Report Template Update: 04-03-08




I N T R O D        U C T       I O N


                              collection program. The term does not appear
                              elsewhere, especially with regard to limiting the
                              scope of reportable actions .… To limit the
                              adverse actions collected by the data bank to only
                              those that are based on health care fraud and
                              abuse would create a data bank that does not fully
                              capture the types of reports that Congress clearly
                              intended to be collected in accordance with the
                              statute. 5
                    HIPDB Reporting Requirements
                    Federal and State government agencies and health plans are required
                    to report certain final adverse actions (hereinafter referred to as adverse
                    actions) that they take against providers. The regulations in
                    45 CFR §§ 61.7–61.11 describe which adverse actions must be reported
                    to HIPDB; however, neither the Social Security Act nor the regulations
                    list the specific agencies required to report. Section E of the HIPDB
                    Guidebook provides further explanation of each type of action, which
                    includes licensure and certification actions, exclusions from
                    participation in Federal and State health care programs, criminal
                    convictions, civil judgments related to health care, and any other
                    adjudicated actions or decisions that the Secretary of HHS establishes
                    by regulation. Table 1 gives an overview of the types of adverse actions
                    that must be reported to the HIPDB. See Appendix A for more detailed
                    information about each type of reportable action.

                    Adverse actions must be reported within 30 calendar days of the date
                    the action was taken or the date the reporting entity became aware of
                    the action or by the close of the next monthly reporting cycle as
                    determined by the entity, whichever is later. 6 If an appeal overturns a
                    reported action, the reporting entity must submit a revised report to the
                    HIPDB. 7 Information reported to the HIPDB is maintained
                    permanently, unless it is corrected or voided from the system. A
                    correction or void may be submitted only by the reporting entity or at
                    the direction of the Secretary of HHS. 8


                      5 64 Fed. Reg. 57740 (Oct. 26, 1999).
                      6 45 CFR § 61.5.
                      7 45 CFR § 61.6(b); HIPDB Guidebook, pp. E-5 and E-15. Accessed at
                    http://www.npdb-hipdb.com on November 30, 2009.
                      8   HIPDB Guidebook, p. E-14. Accessed at http://www.npdb-hipdb.com on
                    November 30, 2009.



 OEI-07-09-00290    CMS REPORTING   TO THE   HIPDB                                                      3
                                                                                                        Report Template Update: 04-03-08




     I N T R O D                   U C T          I O N


                                     CMS reporting to the HIPDB. As shown in Table 1, CMS takes several
                                     types of adverse actions that are required to be reported to the HIPDB,
                                     including revocations and suspensions of laboratory certifications;
                                     terminations of providers from participation in Medicare; and CMPs
                                     against all types of providers, managed care plans, and prescription
                                     drug plans. The CMS Division of National Systems (DNS) maintains
                                     the electronic system CMS uses to track adverse actions for
                                     Medicare-certified provider types (i.e., providers that are required to
                                     have a State survey or that are accredited by an accrediting
                                     organization) and reports those actions to the HIPDB. As of
                                     April 30, 2009, the HIPDB contained 5,146 adverse actions reported by
                                     CMS.
Table 1: Types of Adverse Actions Reportable to the HIPDB

                                                    Is This Action
Type of Action                                                                                                                      Example
                                                  Taken by CMS?


                                                                                   The denial of an application for licensure or certification
Licensure and Certification Actions                              Yes        because of a provider's deliberate failure to report a licensure
                                                                                      disciplinary action taken by another licensing agency

                                                                                  Exclusion of a provider because he or she has filed false
Exclusions                                                       No*                   claims or because his/her medical license has been
                                                                                                                                  suspended

Health-Care-Related Criminal                                                          Conviction and fining of a mental health institution for
                                                                  No
Convictions                                                                  condoning physically abusive methods of controlling patients


                                                                             A judgment against a nursing home for neglect of and failure
Health-Care-Related Civil Judgments                               No
                                                                                                           to adequately clean patient rooms


                                                                                 Termination of a Federal or State government contract for
Other Adjudicated Actions                                        Yes
                                                                                                                                       cause

*42 CFR § 402.200 authorizes CMS exclusion authority, but CMS had not exercised this authority at the time of this review.
Source: HIPDB Guidebook, 2009.


                                     Querying the HIPDB
                                     Federal and State government agencies and health plans are eligible to
                                     query the HIPDB. The information may be used for employment,
                                     affiliation, certification, or licensure decisions. Federal Government
                                     agencies may query the HIPDB without charge. State government
                                     agencies and health plans must pay a per-query fee of $4.75. Providers
                                     may self-query the HIPDB for a fee of $8.00; they are allowed to access
                                     only information about themselves.



         OEI-07-09-00290             CMS REPORTING     TO THE   HIPDB                                                                        4
                                                                           Report Template Update: 04-03-08




I N T R O D        U C T       I O N


                    Related Report and Legislation
                    An October 2005 OIG report on HHS agencies’ reporting to the NPDB
                    found that between June 1997 and September 2004, HHS agencies
                    failed to report as many as 474 medical malpractice cases that should
                    have been reported. The underreporting was caused by factors
                    including lost or incomplete files and the lack of an identifiable HHS
                    contact for the NPDB reporting. 9
                    The information in the HIPDB and the NPDB overlaps, but agencies are
                    required to report information to the HIPDB that is not required to be
                    reported to the NPDB. On March 23, 2010, legislation was enacted that
                    will consolidate this information within the NPDB and terminate the
                    HIPDB. 10 When the legislation is implemented, agencies that currently
                    report to the HIPDB will be required to report to the NPDB.


                    METHODOLOGY
                    HIPDB Data
                    We obtained a copy of the data contained in the HIPDB as of
                    April 30, 2009. We reviewed the data to determine the extent of CMS’s
                    reporting as of that date. We conducted structured interviews with
                    HRSA staff to understand the data fields and ensure we had a complete
                    understanding of HIPDB reporting.
                    CMS Division Interviews and Adverse Action Data
                    We conducted structured interviews with CMS officials in each division
                    that is responsible for (1) oversight of providers that participate in
                    Medicare and (2) reporting of adverse actions. In these interviews, we
                    asked CMS officials about the provider type(s) with which they worked,
                    the adverse actions that they were authorized to impose, whether they
                    maintained a list of the adverse actions they imposed, and their
                    knowledge of HIPDB reporting. Respondents offered reasons why they
                    believed imposed adverse actions were not reportable to the HIPDB.
                    For CMS divisions that maintained lists of imposed adverse actions, we
                    collected documents or data to support the number of adverse actions
                    imposed. 11 We verified whether the listed adverse actions had been



                      9 OIG, HHS Agencies’ Compliance With the National Practitioner Data Bank Malpractice
                    Reporting Policy (OEI-12-04-00310), October 2005.
                      10 The Patient Protection and Affordable Care Act, P.L. 111-148 § 6403.
                      11 Each division that supplied documents or data used a different timeframe.




 OEI-07-09-00290    CMS REPORTING   TO THE   HIPDB                                                       5
                                                                                                          Report Template Update: 04-03-08




       I N T R O D                    U C T          I O N


                                        reported to the HIPDB. Table 2 illustrates the adverse actions
                                        contained in the data and documents provided to us.
Table 2: Adverse Actions Taken by CMS Divisions That Maintained Lists of Actions

 CMS Division                                                                Timeframe of Data Provided              Number of Actions

 Division of Laboratory Services                                         January 1–December 31, 2007                                148

 Program Compliance and Oversight Group                                 January 1, 2006–July 31, 2009*                               30

 Survey and Certification Group                                   October 1, 2004–December 31, 2008                                  45
 *The effective date for the latest action in these data is March 7, 2009.
 Source: CMS staff divisions, 2009.


                                        Standards
                                        This study was conducted in accordance with the Quality Standards for
                                        Inspections approved by the Council of the Inspectors General on
                                        Integrity and Efficiency.




           OEI-07-09-00290              CMS REPORTING      TO THE   HIPDB                                                                 6
                                                                   Report Template Update: 04-03-08




F   I N D I N G
       F I N D I N G


             CMS took adverse actions against                A variety of adverse actions that
                                                             CMS takes against providers, such
        providers, but did not report all of these
                                                             as certification actions and other
               actions to the HIPDB as required
                                                             adjudicated actions, are required to
                      be reported to the HIPDB. However, many CMS divisions that took
                      adverse actions did not report all of them as required. Additionally, the
                      division responsible for tracking and reporting adverse actions against
                      certified providers did not report any actions between 2001–2008.
                      Finally, some of the adverse actions CMS did report were not reported
                      within required timeframes.
                      CMS’s reporting to the HIPDB varied by provider type; CMS officials were
                      unaware that adverse actions related to program compliance should be
                      reported
                      Laboratories. Within CMS, the Division of Laboratory Services imposes
                      terminations, certification actions, and CMPs against laboratories that
                      do not meet Medicare requirements. These adverse actions meet the
                      definitions of certification actions and other adjudicated actions in
                      45 CFR § 61.7 and must be reported to the HIPDB.

                      CMS imposed 148 adverse actions against laboratories in 2007, none of
                      which had been reported to the HIPDB at the time of our review. As of
                      April 30, 2009, the HIPDB contained only one adverse action reported
                      by the Division of Laboratory Services; this report was submitted in
                      1998. CMS officials overseeing laboratories stated their belief that only
                      adverse actions related to fraud and abuse should be reported to the
                      HIPDB. They were unaware that adverse actions related to program
                      compliance should also be reported.

                      Managed care and prescription drug plans. CMS imposes terminations
                      and CMPs against managed care and prescription drug plans that fail
                      to comply with Medicare requirements. These adverse actions meet the
                      definitions of certification and other adjudicated actions in
                      45 CFR § 61.11 and must be reported to the HIPDB.

                      CMS imposed 30 adverse actions against managed care and prescription
                      drug plans between January 1, 2006, and July 31, 2009 (the last action




    OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                             7
                                                                              Report Template Update: 04-03-08




F   I N D I N G


                      was effective March 7, 2009), none of which had been reported to the
                      HIPDB at the time of our review. 12 CMS officials overseeing managed
                      care and prescription drug plans, like officials overseeing laboratories,
                      stated that they believed only adverse actions related to fraud and
                      abuse must be reported to the HIPDB. However, neither section 1128E
                      of the Social Security Act nor the HIPDB regulations limit the reporting
                      of adverse actions to cases of fraud and abuse.

                      Durable medical equipment suppliers. CMS terminates durable medical
                      equipment (DME) suppliers that fail to comply with Medicare
                      requirements. These adverse actions meet the definition of certification
                      actions in 45 CFR § 61.7 and must be reported to the HIPDB.

                      As of April 30, 2009, the HIPDB contained 5,125 adverse actions against
                      DME suppliers imposed from 1998 through 2008. The HIPDB
                      contained no adverse actions against DME suppliers taken after 2008,
                      although DME fraud is an ongoing issue in Medicare—Medicare paid
                      more than $30 million in fraudulent claims to DME suppliers in 2008
                      alone. 13
                      According to the officials with whom we spoke, CMS is no longer
                      reporting adverse actions taken against DME suppliers to the HIPDB.
                      CMS officials responsible for overseeing provider enrollment explained
                      that the 5,125 adverse actions were reported by a contractor that
                      processes enrollment applications for DME suppliers. However, in
                      October 2008, CMS issued a new Statement of Work discontinuing the
                      requirement for this contractor to report enforcement actions to the
                      HIPDB. CMS officials said this change was a cost-saving measure.

                      Nursing homes. CMS terminates or imposes CMPs against nursing
                      homes that fail to comply with Medicare requirements. These adverse
                      actions meet the definitions of certification and other adjudicated
                      actions in 45 CFR § 61.11 and must be reported to the HIPDB.

                      The CMS Survey and Certification Group terminated 45 nursing homes
                      from participating in Medicare from 2004 to 2008. CMS officials stated


                        12 The report provided to us with these data included adverse actions between
                      January 1, 2006, and July 31, 2009. We obtained a copy of the data contained in the
                      HIPDB as of April 30, 2009. However, the last adverse action imposed against managed
                      care and prescription drug plans was effective March 7, 2009, within our period of review.
                        13   Fact Sheet: Phase Two Medicare Fraud Strike Force Los Angeles Metro Area. HHS
                      and Department of Justice. Accessed at http://www.stopmedicarefraud.gov on
                      January 20, 2010.



    OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                                               8
                                                                              Report Template Update: 04-03-08




F   I N D I N G


                      that these 45 nursing home terminations were not reported to the
                      HIPDB until the fall of 2009. They further stated that they plan to
                      report nursing home terminations annually. However, annual reporting
                      of nursing home terminations does not comply with the reporting
                      requirements in 45 CFR § 61.5 as to timeframe.

                      Additionally, in fiscal year 2008, the CMS Office of Financial
                      Management collected over $37 million in CMPs, of which CMS officials
                      estimated that 85 percent were from nursing homes. However, CMS
                      had not reported any CMPs to the HIPDB as of April 30, 2009. CMS
                      officials stated that CMPs against nursing homes need not be reported
                      to the HIPDB for two reasons. First, CMS officials stated that reporting
                      is required only for adverse actions due to fraud and abuse. Many
                      CMPs are intended to correct lack of compliance with provider
                      standards, not to deter fraud and abuse. However, section 1128E of the
                      Social Security Act does not limit the reporting of adverse actions to
                      cases of fraud and abuse. Second, CMS officials said that if providers
                      correct the noncompliance, the CMP is rescinded and the provider never
                      pays the penalty imposed. However, neither section 1128E of the Social
                      Security Act nor the HIPBD regulations contain exceptions to reporting
                      for adverse actions that may be rescinded. CMS must report all
                      imposed adverse actions; if the actions are later rescinded, CMS must
                      submit a revised report to the HIPDB indicating the rescission.
                      CMS did not report any adverse actions against Medicare-certified provider
                      types between 2001 and 2008
                      We identified 20 reports of adverse actions against providers of various
                      types (e.g., laboratories, clinics, medical doctors) imposed in 2000 that
                      DNS reported to the HIPDB. 14 As of April 30, 2009, the HIPDB
                      contained no further reports from DNS after 2000.

                      DNS uses an electronic system to track adverse actions against
                      providers that are required to have a State survey or are accredited by
                      an accrediting organization, such as hospitals and nursing homes. DNS
                      officials told us that they would report only terminations for nursing
                      homes, despite having information on other types of providers in their
                      system. DNS reports only termination actions that are imposed for
                      failure to meet health and safety requirements and that have gone


                        14 Medicare-certified providers are required to have a State survey or be accredited by an

                      accrediting organization. Medical doctors are not certified by Medicare. We could not
                      determine why DNS reported adverse actions against medical doctors.



    OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                                             9
                                                                Report Template Update: 04-03-08




F   I N D I N G


                      through the entire appeals process, after which the terminated
                      providers will no longer participate in Medicare. However, adverse
                      actions must be reported within the timeframes specified by law
                      regardless of whether appeals are pending.




    OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                         10
                                                                 Report Template Update: 04-03-08




F   I N D I N G        S
       R E C O M M E N D A T I O N




                      CMS did not report all adverse actions to the HIPDB as required by
                      Federal law. CMS officials stated that they believe only adverse actions
                      related to fraud and abuse must be reported to the HIPDB.
                      Furthermore, the division within CMS responsible for tracking adverse
                      actions against certified provider types did not report any actions
                      between 2001 and 2008. However, neither section 1128E of the Social
                      Security Act nor the HIPDB regulations limit reporting to cases of fraud
                      and abuse, nor do they contain any exceptions to required reporting
                      based on costs of reporting.

                      Section 6403 of the Patient Protection and Affordable Care Act
                      (P.L. 111-148) transfers information from the HIPDB to the NPDB and
                      terminates the HIPDB. Implementation is to be 1 year after enactment
                      or when final regulations are promulgated, whichever occurs later.
                      When implementation occurs, CMS will be required to report to the
                      NPDB information that CMS is currently required to report to the
                      HIPDB.

                      To address our finding we recommend:
                      CMS should report all adverse actions as required
                      To accomplish this, CMS should educate staff and contractors about the
                      types of adverse actions required to be reported and the timeframes for
                      reporting.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its written comments on the report, CMS concurred with our
                      recommendation. CMS described planned efforts to report adverse
                      actions imposed against nursing facilities, laboratories, and DME
                      suppliers, including working with HRSA to develop technical procedures
                      and educating staff and contractors about HIPDB reporting. CMS
                      issued instructions to the National Supplier Clearinghouse (the DME
                      supplier enrollment contractor) to submit reports for suppliers whose
                      Medicare billing privileges were revoked in 2009 and will establish
                      procedures to ensure the contractor reports adverse actions monthly to
                      the HIPDB. CMS stated that further discussion with HRSA and OIG is
                      necessary to clarify whether some actions are reportable. We did not
                      make any changes to the report based on CMS’s comments. The full
                      text of CMS’s comments on the draft report can be found in Appendix B.

    OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                          11
                                                                      Report Template Update: 04-03-08




   A P P E N D I X                   ~        A

                  Types of Adverse Actions Required To Be Reported to the
                  Healthcare Integrity and Protection Data Bank

                  Licensure or certification actions. Federal and State agencies responsible
                  for the licensing and certification of providers must report adverse
                  licensure actions taken against practitioners, providers, and suppliers to
                  the Healthcare Integrity and Protection Data Bank (HIPDB). 15 The
                  actions must be formal or official actions; they need not be related to
                  professional conduct or competence. Examples of reportable adverse
                  licensure and certification actions include:

                     any loss, revocation, or suspension of a license or certification
                      agreement or contract for participation in Federal or State health
                      care programs;

                     any loss of the right to apply for or renew a license, certification
                      agreement, or contract;

                     any reprimand, censure, or probation; and

                     any other negative action or finding by a Federal or State agency
                      that is publicly available information and is rendered by a licensing
                      or certification authority, including limitations on the scope of
                      practice, liquidations, injunctions, exclusions, revocations,
                      suspensions or forfeitures, and excluding administrative fines or
                      citations and corrective action plans and other personnel actions
                      unless they are connected to the billing, delivery, or provision of
                      health care services and taken in conjunction with other licensure or
                      certification actions.
                  Exclusions from participation in Federal or State health care programs. The
                  term “exclusion” is defined as a temporary or permanent debarment of
                  an individual or entity from participation in Federal or State
                  health-related programs, in accordance with which items or services
                  furnished by the person or entity will not be reimbursed by the
                  program. Sections 1128B(9)(f) and (h) of the Social Security Act specify
                  which Federal and State health care programs are included in this
                  definition. Examples of reportable exclusions include a practitioner who
                  is excluded because he or she has filed false claims or because his or her
                  medical license has been suspended.



                    15 All of the examples presented in this Appendix are adapted from the HIPDB
                  Guidebook, February 2000. Accessed at http://www.npdb-hipdb.com on November 30, 2009.



OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                                     12
                                                                     Report Template Update: 04-03-08




A   P   P E N D       I X      ~       A


                      Health-care-related criminal convictions. Federal, State, and local
                      prosecutors must report criminal convictions and injunctions that are
                      related to the delivery of health care items or services and that are
                      taken against health care practitioners, providers, and suppliers. These
                      criminal convictions include situations in which a judgment or
                      conviction has been entered in a Federal, State, or local court,
                      regardless of whether an appeal is pending or whether the record has
                      been expunged; a finding of guilt has been entered; a plea of guilty or
                      nolo contendere has been accepted; or an arrangement in which
                      judgment or conviction has been withheld, such as a first offender or
                      deferred adjudication program. Examples of criminal convictions that
                      must be reported to the HIPDB include:

                           the conviction and fining of a mental health institution for
                            condoning physically abusive methods of controlling patients,

                           the conviction and fining of both a chiropractor and a medical supply
                            company for providing kickbacks in exchange for patient referrals,

                           the deferred conviction of a practitioner for accepting money for
                            referrals to a specialist and sentencing of the practitioner for a
                            2-year probationary period, and

                           an injunction by the Food and Drug Administration against a
                            pharmaceutical company to stop the production of a drug found to
                            produce harmful side effects.

                      Examples of criminal convictions that would not be reported to the
                      HIPDB include:
                            a civil judgment against a physician for medical malpractice
                             resulting in an award to the plaintiff and

                            a deferred conviction of a practitioner for possession and abuse of
                             drugs and sending the practitioner to a rehabilitation facility.
                      Health-care-related civil judgments. Federal and State attorneys and
                      health plans must report civil judgments against practitioners,
                      providers, and suppliers related to the delivery of a health care item or
                      service, regardless of whether the judgments are being appealed. If a
                      government agency is party to a multiclaimant suit, it is responsible for
                      reporting the entire action. When there are multiple health plans as
                      claimants but no government agency, the health plan that received the
                      largest award is responsible for reporting the total action. Examples of
                      reportable civil judgments include:


    OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                              13
                                                                              Report Template Update: 04-03-08




A   P   P E N D       I X         ~      A


                              a judgment against a clinical laboratory for fraudulent billing and
                               misleading marketing,

                              a judgment against a nursing home for neglect of and failure to
                               adequately clean patient rooms, and

                              a judgment against a plastic surgeon for misrepresenting claims as
                               noncosmetic procedures in order to receive payment for them.

                      Examples of nonreportable civil judgments include:

                              a judgment imposing a fine on a medical supply company for hiring
                               discrimination,

                              a judgment against a practitioner for medical malpractice, and

                              a judgment against a practitioner stemming from an automobile
                               accident not related to the delivery of health care.
                      Other adjudicated actions or decisions. Federal and State government
                      agencies and health plans must report adjudicated actions or decisions
                      against practitioners, providers, and suppliers. Other adjudicated
                      actions or decisions are those which “… include the availability of a due
                      process mechanism and [are] based on acts or omissions that affect or
                      could affect the payment, provision, or delivery of a health care item or
                      service.” Examples of other adjudicated actions or decisions include a
                      personnel-related action, such as a termination and a Federal or State
                      government contract terminated for cause. 16




                          16   HIPDB Guidebook, p. E-11. Accessed at http://www.npdb-hipdb.com on
                      November 30, 2009.



    OEI-07-09-00290   CMS REPORTING     TO THE   HIPDB                                                     14
                A P PEN D                         x                 B


AGENCY COMMENTS 



   l":1-"
      ..I'"...,
   \,           ~ ~:~~TMENT OF HEAl:TH ~.H~.A__N_S_E_R_V_IC_E_S_ _ _ _ _ _ _Ce~n_rt._"'_foI_Mo<I
                                                                                           __    icII_re_&_M9d_Ito._kl_·S4_N_lce.

      ..... 	                                                                                   Admi,.lstr4to, 

                                                                                                 Waolllr1ytQn. DC 20201 





                                   A~JG     5 2010
                   nATE:

                   TO: 	          Daniel R. Levinson 

                                  Inspector <A:neral ­

                   FROM: 	        Donald1Vlmerwlft, rvY.ft. 
 /S/
                                  Administrator 


                   SUBJECT: 	 Otl\ce of Inspector Genernl (010) Draft Report eMS Reporting to the
                              Healthcare Integrity and Protection Data Bank (OEI"(}7-09-00290)


                   'Ibank you for the opportunity to review and comment on lhe above-referenced report from 010.
                   Uu: Ccnters for Medicare & Medicaid Service,; (eMS) appreciates the input by OIG in ns-'lCssing
                   efforts to prevent the employment of pote[Jtially fraudulent or abusive hcalthcare providerS and
                   supplierS. The purpose ofthis report was to evaluate whether eMS reported all of its adverse
                   actions to the Healtlt.carc Integrity and Protection Data Bank (HIPDB), a national data bank
                   containing reports of adverse actions against health care providers taken by Federal and St[;lle
                   govemment agencies and health plans.

                   We hope to engage with the Health Resources and Services Administration (HRSA) and 010 to
                   address the many isslles relating to the HIPDB that were omside the scope of this report, as those
                   efforis will fac.ilitate adoption of the 010 recommendation.

                   OIG     R~ommendation

                   The eMS should report an adverse actions as required. To accomplish this, eMS should eQ\lCute
                   stafflind cootractors about the types of adverse action~ required to be reported and the
                   timeframes for reporting to the relevant data bank.

                   (~MS    Response

                    The eMS ooncurs with lhis recommendation.

                   The eMS provided the ouutnndillg nursing home tcnnirmli()n daia from 2004 through 2008. as
                   well as 2009 terminations. in June. In additio[J, we arc investigating. the most feasible methods
                   to provide additional data on nursing home denial of payment for new admissions. and
                   laboratories wll[}se partio,;ipation in the Clinical Laboflllory Improvement Amendments of 1988
                   program Iu1s beel1 revoked or suspended. eMS issued instructions to tbe National Supplier
                   Cicilrillghouse (NSC) LO submit 2009 fCvocation data to the H1PDB by September 1,2010 when




     oE'·07 ·09·0 0290                eMS REPORTING TO THE HIPDB                                                                    15
                                                       Report Template Update: 04-03-08




A   P   P E N D       I X     ~        B




    OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                16
                                                              Report Template Update: 04-03-08




A   A PC EK N N D OI W
     P
                        L E D G M E N T S
                      X ~ A

                   This report was prepared under the direction of Brian T. Pattison,
                   Regional Inspector General for Evaluation and Inspections in the
                   Kansas City regional office, and Deborah K. Walden, Deputy Regional
                   Inspector General.

                   Tricia Fields served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the Kansas City regional
                   office who contributed to the report include Michael P. Barrett and
                   Michala Walker; central office staff who contributed include Heather
                   Barton, Anne MacArthur, and Talisha Searcy.




 OEI-07-09-00290   CMS REPORTING   TO THE   HIPDB                                          17
                                                                      Report Template Update: 04-03-08




                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
